                                                               UNCLASSIFIED


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General




                                         Middle East Regional Office
Office of Inspector General


                                              Limited-Scope Review of
                                                   Planning for the
                                          Civilian Uplift at Embassy Kabul

                                            Report Number MERO/I-11-11, August 2011




                                                               Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be
                              made, in whole or in part, outside the Department of State or the Broadcasting Board
                              of Governors, by them or by other agencies of organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be
                              determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                              disclosure of this report may result in criminal, civil, or administrative penalties.



                                                              UNCLASSIFIED
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE




     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

     It is my hope that this report will result in more effective, efficient, and/or economical
operations. I express my appreciation to all of those who contributed to the preparation of this
report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                                             UNCLASSIFIED


                                                           Table of Contents

Key Findings ............................................................................................................................ 1

Introduction .............................................................................................................................. 2

Background .............................................................................................................................. 3

Executive Summary ................................................................................................................. 3
       Results .......................................................................................................................... 3
       Management Comments and OIG Response ............................................................. 5

Assessment of Staff Positions ................................................................................................. 6

Office Facilities, Housing, and Logistical Support ............................................................... 7
       Office Facilities ........................................................................................................... 7
       Embassy and Regional Post Housing......................................................................... 9
       Vehicles, Security Personnel, and Interpreters at Regional Posts .......................... 10

Abbreviations ......................................................................................................................... 13

Appendix I – Purpose, Scope, and Methodology ................................................................ 14
Appendix II – Comments From the Special Representative for Afghanistan
      and Pakistan ............................................................................................................... 15
Appendix III – Comments From Embassy Kabul ............................................................... 19




                                                             UNCLASSIFIED
                                       UNCLASSIFIED


Key Findings
  •   The Department of State (Department), in coordination with Embassy Kabul, led the
      interagency effort and adequately assessed the positions needed to address the
      administration’s goals and handle the civilian uplift in Afghanistan.

  •   The rapid influx of personnel, coupled with Embassy Kabul’s policy of not denying
      staffing requests because of a lack of office facilities and housing, initially resulted in
      insufficient working and living space for incoming staff at both the embassy and the
      regional posts in Mazar-e-Sharif and Herat.

  •   Staff productivity (b) (5)     at Embassy Kabul and the two regional posts have been
      negatively affected by insufficient facilities for working and living.

  •   The addition of temporary housing units has alleviated the crowded housing situation at
      Embassy Kabul. Further, ongoing construction of permanent housing and office space
      will sufficiently increase the amount of living and work space in the near term. Once
      completed, the construction projects will add more than 600 new beds and more than
      1,200 new desks.

  •   Security at the regional posts in Mazar-e-Sharif and Herat is provided by the International
      Security Assistance Force (ISAF), limiting the posts’ ability to conduct work throughout
      their areas of responsibility. Once the new consulates in Mazar-e-Sharif and Herat are
      operational, security responsibilities will be transferred to Embassy Kabul.

  •   Staff in Herat and Mazar-e-Sharif reported they did not have a sufficient number of
      interpreters. Subsequent to OIG’s fieldwork, Embassy Kabul expanded the number of
      interpreter positions throughout the country, and both regional posts reported they now
      have enough interpreters on staff or in the process of being hired.




                                                 1
                                       UNCLASSIFIED
                                         UNCLASSIFIED


Introduction
The administration’s goal for U.S. engagement in Afghanistan is to disrupt, dismantle, and defeat
al-Qaeda and its extremist allies in Afghanistan because extremist control of Afghanistan would
threaten the United States, its allies, and stability in the region. To help meet this goal, the
President has called for increases in Embassy Kabul civilian personnel to fulfill additional U.S.
Government responsibilities. The civilian uplift is an ongoing interagency effort that is
significantly expanding the number of U.S. Government personnel under chief of mission
(COM) authority in Afghanistan. This effort is being led by the Department and includes all U.S.
Government agencies with civilian staff in Afghanistan, such as the Departments of Agriculture,
Commerce, Defense, Health and Human Services, Homeland Security, Justice, and the Treasury;
and the U.S. Agency for International Development (USAID). From January 2009 to February
2011, the civilian uplift more than doubled staffing, increasing from 531 employees to 1,167
approved staff positions in Afghanistan; total Department staffing rose from 261 to 537 approved
positions during the same period. Ultimately, staffing in Afghanistan under the civilian uplift is
expected to total 1,500.

The Middle East Regional Office (MERO) of the Office of Inspector General (OIG) initiated this
work under the authority of the Inspector General Act of 1978, as amended. The objectives of
this limited-scope review were to determine: (1) the degree to which the Department conducted
needs assessments to identify, develop, and staff new positions at Embassy Kabul and its
regional posts; and (2) the availability and conditions of office facilities, housing, and logistical
support for staff filling these new positions.

OIG reviewed relevant documentation, such as human resources planning documents, cables,
and action memoranda, and met with officials from the Bureaus of South and Central Asian
Affairs, Overseas Buildings Operations (OBO), and Human Resources (Office of the Director
General); and from the office of the Special Representative for Afghanistan and Pakistan
(S/SRAP). In addition, OIG interviewed officials at Embassy Kabul and the regional posts in
Mazar-e-Sharif and Herat. OIG conducted structured interviews with 42 randomly selected
Department staff members at Embassy Kabul and the regional posts. OIG visited several offices
and different types of housing facilities, and toured new housing and office building construction
sites. OIG conducted this limited-scope review in accordance with the Quality Standards for
Inspection and Evaluation issued in January 2011 by the Council of the Inspectors General on
Integrity and Efficiency.




                                                  2
                                         UNCLASSIFIED
                                             UNCLASSIFIED


Background
The increase in civilian staff at Embassy Kabul has been accompanied by a steady increase in
funding levels for the embassy. In FY 2007, prior to the civilian uplift, Embassy Kabul’s funding
was $155 million. In FY 2010, the embassy’s funding increased to $1.5 billion; the embassy
requested $1.1 billion for FY 2011 and $1.1 billion for FY 2012. Table 1 below shows the
increase in appropriated and requested funding levels for Embassy Kabul from FY 2007 through
FY 2012.

Table 1: Department of State Appropriated and Requested Funding for Afghanistan from
FY 2007 to 2012 (dollars in millions)*
                       FY        FY      FY      FY       FY 2011         FY 2012
      Funding         2007      2008    2009    2010      requested       requested
Operations Fund       $155      $391    $934   $1,502      $1,110           $1,102
Foreign Assistance
                       290       342    594     746          571             420
Fund
Total                 $445      $733   $1,528 $2,248       $1,681           $1,522
Source: Bureau of Resource Management, Office of State Programs, Operations, and Budget
*Totals include funding for the Diplomatic and Consular Programs Budget, the Worldwide Security Protection
program, embassy security, construction and maintenance, the Bureau of Educational and Cultural Affairs, and OIG
at the Department, as well as funding for the Special Inspector General for Afghanistan Reconstruction.

Executive Summary
Results

The Department adequately led interagency efforts to assess the need for new positions and
staffing requirements in support of expanded assistance to Afghanistan. Embassy Kabul
conducted several assessments to identify the types, grades, and numbers of new positions
required to successfully achieve the expanded objectives for the embassy. Each agency and
section in the embassy developed specific position descriptions for all new positions. Prior to
sending official requests to the Department for new staff, embassy management reviewed each
position description to prioritize needs and prevent redundant or duplicative positions. The
Department led interagency meetings in Washington, DC, to review the needs assessment
process, its progress, and each of the requested positions, and all new positions were approved by
the Under Secretary of State for Management.

Although the Department and the embassy adequately identified needs for new positions, the
rapid influx of personnel initially strained the embassy’s ability to provide sufficient office
facilities, housing, and logistical support. Throughout the planning and uplift process, the
embassy maintained a policy that it would not deny staffing requests because of a lack of office
space or housing. OIG observed that most embassy sections lack adequate office facilities, with
limited available space and desks. As a result, most embassy staff work in crowded open areas.
Embassy Kabul and the regional posts also have limited space for controlled access areas (CAA),
which significantly restricts most embassy sections’ ability to review classified information, and
challenges reporting from the field.
                                                       3
                                             UNCLASSIFIED
                                         UNCLASSIFIED



During its fieldwork in January 2011, OIG noted that Embassy Kabul did not have sufficient
housing for newly arriving personnel. To accommodate some permanent staff members working
1 year or more at the embassy, some one-bedroom apartments were converted to two-bedroom
apartments. Most permanent staff members were housed in trailers and many had to double up in
trailers designed for one person. However, the arrival of new trailers has alleviated this situation.
At one point, temporary duty personnel on assignments of less than 6 months were housed in
common housing units that accommodated up to 50 people, but the embassy has discontinued the
use of these units. Temporary duty staff members on assignments of less than 6 months now
double up in trailers designed for a single person.

At the time of OIG’s review, there were not enough vehicles at the regional posts in Mazar-e-
Sharif and Herat for personnel to conduct their work in non-restricted self-drive zones, but since
that time, Embassy Kabul has provided an adequate number of vehicles. Staff members at the
regional posts have limited ability to work in portions of their respective districts that are outside
the self-drive zones. For security reasons, staff can only work in approximately 18 percent of
their area of responsibility in Herat and about 78 percent of their area of responsibility in Mazar-
e-Sharif. Traveling in the remaining restricted areas (those outside self-drive zones) typically
requires military convoys of mine resistant ambush protected vehicles, which can create a show
of force that conflicts with the embassy’s engagement strategy with Afghan civilians. (b) (5)


             Since OIG’s fieldwork, Embassy Kabul has added a sufficient number of
interpreters at Herat and Mazar-e-Sharif.

The crowded office facilities and housing conditions have negatively affected staff productivity
(b) (5)      with embassy and regional post staff reporting to OIG that productivity had been
reduced by as much as 50 percent. OBO is managing two ongoing construction projects at the
embassy designed to provide permanent office and housing facilities. These projects were
originally scheduled for completion in 2012 and 2014, respectively, but will now be completed
in 2013 and 2015. One of these projects provides non-permanent office and housing facilities to
be used as swing space for embassy staff until the permanent facilities are completed. However,
embassy officials reported that construction of these facilities will severely encroach on the
already limited open space within the embassy compound, thereby limiting outdoor activities and
potentially further reducing (b) (5)              productivity. The embassy is negotiating for
additional land adjacent to the compound for intended temporary facilities, so that both the
mission and the construction contractor can manage congestion on the embassy compound.
However, these negotiations have been constrained by the Afghan Government. Completion of
office buildings and housing units at the regional posts has been delayed beyond the original
completion date of August 2010 for Mazar-e-Sharif and December 2010 for Herat.

The original draft of this report included two recommendations, one related to vehicles and a
second to interpreters. However, because Embassy Kabul took corrective action before issuance
of the final report, this report does not contain recommendations.



                                                  4
                                         UNCLASSIFIED
                                        UNCLASSIFIED

Management Comments and OIG Response

S/SRAP and Embassy Kabul provided formal comments on a draft of this report, which are
included verbatim in Appendices II and III, respectively. OBO and the Bureau of Diplomatic
Security (DS) provided technical comments. The Bureau of International Narcotics and Law
Enforcement Affairs had no comments. S/SRAP noted that in general, the report does not
sufficiently take into account the context and constraints imposed on the Department and
embassy by the President’s Strategic Review for Afghanistan and Pakistan, and the speed
required for its implementation. Embassy Kabul noted its strong disagreement with the report’s
conclusion that the rapid influx of personnel, coupled with the embassy’s policy of not denying
staffing requests because of lack of office facilities and housing, resulted in insufficient working
and living space for incoming staff at both the embassy and regional posts in Mazar-e-Sharif and
Herat. Embassy Kabul also disagreed with the draft report’s original two recommendations
aimed at addressing the shortage of vehicles and interpreters at regional posts. OBO provided
updated information on construction activities. DS provided information on static and movement
security at the regional posts. Updates and technical information provided by S/SRAP, the
embassy, OBO, and DS, have been incorporated into the report as appropriate.

OIG fully understands the context and the constraints imposed on the Department and the
embassy by the fluid and insecure environment in Afghanistan. OIG also recognizes that the
Department and the embassy have been improving the working and housing conditions and,
therefore, has not made recommendations in these areas. However, this report reflects a point in
time. In interviews with more than 50 embassy and regional post personnel, the staff directly
linked the loss of productivity (b) (5)        to the crowded working and housing conditions.
The report credits the Department and the embassy for properly assessing the need for new
positions and staffing requirements in support of expanded assistance to Afghanistan and fairly
describes the strain on the embassy to provide office facilities, housing, and logistical support
resulting from the explosive growth.

Embassy Kabul stated that, according to the Foreign Affairs Manual, there are sufficient vehicles
for personnel at the regional posts to regularly travel to self-drive areas of their districts. The
embassy also reported it had recently provided additional vehicles to the post in Herat and has
more vehicles in the pipeline. Based on this information, OIG removed a recommendation
regarding vehicles from the final report.

The embassy also disagreed with OIG’s original recommendation to increase the number of
interpreters in Herat and Mazar-e-Sharif, noting a sufficient number of interpreters at the
regional posts, including one cleared American Dari interpreter in Herat, 19 Afghan interpreters
working in the field (locations not specified), and an additional 27 new or replacement positions
in various stages of recruitment and clearance. The management officer in Herat confirmed the
post now has three approved interpreter positions, including the American who began in
February 2011, one locally employed staff position to be filled in mid-July 2011, and a second
locally employed staff position that would be filled by the end of October 2011. The
management officer stated that three interpreters are sufficient for Herat’s operations. The
management officer in Mazar-e-Sharif also verified the post now has a sufficient number of


                                                 5
                                        UNCLASSIFIED
                                        UNCLASSIFIED

interpreters—one who had been hired and two in the process of being hired. Therefore, OIG has
withdrawn the recommendation to add interpreters at both regional posts.

Assessment of Staff Positions
From December 2008 to April 2010, the Department conducted several needs assessments to
identify new civilian staff positions to support the administration’s strategy in Afghanistan. In
December 2008, the first phase of assessment began with discussions that anticipated the
incoming administration’s changing U.S. Government strategy, and an understanding that the
Department would have to quickly respond to new requirements.

In the second phase, which began in March 2009, the Department requested that all sections at
Embassy Kabul identify the U.S. staff positions needed to implement a more robust engagement
in Afghanistan, including support positions. For each new position, each agency under COM
authority developed and presented to embassy management a specific position description,
including grade, responsibilities, and type of employee (for example, U.S. Government direct-
hire or personal services contractor). Embassy management vetted and approved 443 positions
from all agencies under COM authority. The Deputy Secretary for Management was involved in
this process, holding weekly meetings with management from all agencies under COM authority
to discuss progress. In April 2009, the Ambassador officially requested Department approval for
the 443 new positions. In the fall of 2009, the Ambassador requested a second review to identify
additional positions. The assistant COM reviewed and approved 545 additional positions, which
were then submitted and approved incrementally by the Under Secretary for Management. In
April 2010, the Department, USAID, and Embassy Kabul hosted a workshop in Kabul for all
agencies under COM authority to evaluate existing positions and ensure that the newly identified
positions would assist in achieving overall mission objectives. In June 2010, 204 of the 545
additional positions were approved, and the Department identified 32 positions to be eliminated
from consideration or be considered at a future review.

The Department is currently in the third assessment phase. In a letter presenting the FY 2011
budget request for operations, the Secretary of State stated that the Department plans to maintain
civilian staffing of 1,500 in Afghanistan, an increase of more than 300 positions over the current
level.

Table 2 below summarizes the total annual approved increases in staff at Embassy Kabul from
the base of 531 employees prior to the civilian uplift to a total of 1,167 approved positions as of
February 2011. Although positions have been approved, not all have been filled; staffing
numbers and needs are constantly fluctuating, which leads to frequent changes in the number of
personnel working at the embassy.




                                                 6
                                        UNCLASSIFIED
                                              UNCLASSIFIED


Table 2: Increases in Approved Civilian Uplift Positions for all Agencies under Chief of
Mission Authority in Afghanistan
                       Approved           Phase 1 Approved         Phase 2 Approved          Total Positions
      Date           Positions Base       Positions Increase       Positions Increase          Approved
 January 2009              531                    443                        0                     974
 June 2010                 974                    -32*                    204                    1,146
 February 2011           1,146                                              21                   1,167
Source: Bureaus of Near Eastern Affairs and South and Central Asian Affairs
*Approved positions decreased because 32 new positions were filled by the fall of 2010, or were no longer needed.

Although the Department adequately assessed the need for new positions, some section officials,
for example, in the regional security office and the political office, stated that additional staff
would help them better achieve their objectives. However, according to officials in both sections,
a lack of funding and space has prevented adding new staff members.

A senior regional post official stated that the planning process in Washington, DC, and Embassy
Kabul was not always well coordinated with the post in Herat. The official noted that he was
asked to respond within 24 hours to emails requiring key decisions on staffing, but such
responses were not always possible because of an unreliable Internet connection and lack of
secure equipment. Staff at both regional posts stated that they lacked reporting officers, which
has limited their ability to provide timely assessments of current political and economic
developments in the provinces and districts.

Office Facilities, Housing, and Logistical Support

Although the Department and Embassy Kabul adequately identified new staffing needs, the
embassy was not initially prepared to absorb and support newly arriving personnel. During
fieldwork conducted in January 2011, OIG observed the embassy did not have sufficient space
for offices or an adequate number of desks. Additionally, at both the embassy and regional posts,
there was insufficient space in the CAAs to process classified information. Embassy housing for
incoming personnel was unsatisfactory, requiring many staff members to share living space
designed for a single person. Short-term temporary duty staff members—those working in Kabul
for less than 6 months—were housed in trailers with up 50 people in a single trailer (and eight
people per single room). The use of such facilities has since been discontinued. In addition, after
OIG’s fieldwork, the embassy received more housing units, which alleviated the need for shared
housing. Finally, OIG found the regional posts in Mazar-e-Sharif and Herat had an inadequate
number of security personnel. These issues contributed to reduced productivity (b) (5)


Office Facilities

Embassy Kabul management was aware that a sizable increase in staffing would strain the
mission’s office facilities. However, throughout its staffing assessment, management maintained
a policy that staffing requests would not be denied because of a lack of space. As a result, most
sections at Embassy Kabul lack adequate office facilities in terms of available space and number
of desks.
                                                        7
                                              UNCLASSIFIED
                                        UNCLASSIFIED



Embassy Kabul’s office facilities were designed and built to accommodate approximately one-
third the current staff size. To facilitate staff increases and triple or quadruple the original
capacity, the mission subdivided many offices. The mission also converted conference and
meeting rooms and some public space to offices. Thus, staff members of many embassy sections
work in very crowded conditions. The embassy plans to purchase additional office furniture to
provide each staff member with a desk, but doing so will further reduce the already cramped
workspace.

Several embassy and regional posts officials also expressed frustration over the limited CAA
space. A CAA is a designated area within an embassy or consulate where classified information
or materials may be handled, stored, discussed, and processed. Because of the limited CAA
space at the embassy, section chiefs and staff are limited in their ability to receive and send
classified information. The CAA is only available during designated hours, so embassy staff
members must often work late or on their day off to gain access.

The regional posts do not have CAAs and will not have them until the new permanent consulates
are completed. Staff members currently work in several locations and without access to a CAA,
do not have classified reporting capability and must find creative ways to report on field
conditions. The new consulates in Mazar-e-Sharif and Herat will have space designated for
CAAs. Construction of the consulates was to be completed in August 2010 in Mazar-e-Sharif
and in December 2010 in Herat. However, construction at both locations is behind schedule, and
neither consulate has been opened. It is estimated that construction will be completed in the fall
of 2011.

The lack of adequate office space negatively affects the productivity of embassy staff. For
example, OIG observed that employees of one section were assigned to several different work
locations within the embassy. Another section was required to move half of its staff to a site
outside the embassy compound. An OIG survey of embassy staff revealed that separation among
work colleagues was inefficient, (b) (5)
                                                                          In addition, the OIG
team observed employees of a section that provides essential mission support, requiring the use
of telephone and radio communications and a walk-up service counter, were in an open and
cramped space. The lack of space affects this staff’s ability to concentrate and reduces efficiency
when responding to radio communications, talking on the phone, and assisting embassy staff at
the walk-up service counter. To compensate for the lack of conference and meeting rooms,
embassy staff often meet at tables and benches outside, when weather permits, or at the Kabul
community center on the compound, which is a social gathering site.

During structured interviews and in responses to an OIG questionnaire, regional post and
embassy staff stated that the lack of office space and the crowded conditions (b) (5)
                           reduced their productivity by up to 40 percent. In one instance, a senior
embassy official stated that the cramped office conditions make his section only 60 percent
effective.



                                                 8
                                        UNCLASSIFIED
                                                UNCLASSIFIED

To resolve the insufficient work space at Embassy Kabul, the Department awarded two
construction contracts in 2009 and 2010 to build office buildings (including CAAs) and provide
five non-permanent office buildings with 896 desks to be completed in the summer of 2011. The
embassy is also negotiating with the Afghan Government for land adjacent to the embassy that
would be used, in part, for additional temporary office space. In addition, construction of
permanent unclassified and classified office buildings is scheduled for completion in 2013 and
2015, respectively. The new office buildings will create space for 1,219 desks—917 unclassified
desks by 2013 and 302 classified desks by 2015.


Embassy and Regional Post Housing

During fieldwork in January 2011, OIG observed Embassy Kabul did not have sufficient
capacity to adequately house the increase in staff. At that time, the embassy had three different
types of housing—staff diplomatic apartments and trailers (hooches) for permanent staff (those
assigned to post for 1 year or more) and staff on temporary assignments of 6-11 months, and
temporary hooches (t-hooches) for temporary duty staff assigned for less than 6 months.

At the embassy, there are 144 one-bedroom apartments, which were initially built to
accommodate 144 beds. However, because of staff increases, 90 of these apartments were
transformed into two-bedroom apartments by dividing the living room into a smaller living room
and a bedroom. Priority for apartments is usually given to senior staff, tandem couples, staff with
eligible family members, 1 and staff assigned for 1 year or more who are willing to share a two-
bedroom apartment. Most permanent staff and temporary duty staff assigned for 6-11 months,
however, lived in hooches which measure either 8 x 20 feet or 10 x 20 feet. These hooches were
originally designed to house a single person, and priority was given to permanently assigned
staff. Because of lack of accommodations, a second bed was added to many hooches and, until
another single hooch became available, many staff had to double up.

To address the lack of adequate housing, in 2009 and 2010, the Department awarded
construction contracts to provide 613 beds in three permanent multi-story staff diplomatic
apartment buildings—193 beds will be delivered in 2013 and the balance in 2015. To meet
immediate housing needs, under the 2009 contract, 96 additional hooches were delivered in
December 2010 and 48 more hooches will be delivered in the summer of 2011. These new
hooches have alleviated the need for two individuals to live in hooches designed for one person.

T-hooches consisting of eight rooms housed up to 50 people, with some rooms accommodating
up to eight people in four bunk beds. The main t-hooch had three toilets, four sinks, one urinal,
and two showers for 50 residents. Other t-hooches had Afghan-style toilets (foot-pad toilets),
with showers in a separate building. Some temporary duty employees were assigned to large
rooms known as bunkers, also used as safe havens, which accommodated up to 12 people, with a
toilet and a sink, and showers in a separate building. Some closets in both the hooches and t-
hooches were approximately the size of American school lockers.


1
    Eligible family members are spouses or relatives of U.S. Government direct-hire employees.
                                                          9
                                                UNCLASSIFIED
                                        UNCLASSIFIED

T-hooches and bunkers were generally intended for use by temporary duty staff assigned for
short periods of time, usually less than 6 months. However, permanent (1 year or more) staff and
longer term temporary duty (6-11 months) staff were initially housed in t-hooches for short
periods until single accommodations or shared hooches became available. As the embassy staff
increased, the duration of stays in the t-hooches also increased for these staff members. Prior to
issuing this report, Embassy Kabul discontinued the use of the t-hooches. Staff assigned to
Embassy Kabul for less than 6 months now double up in hooches designed for a single person.

Two leased houses, protected by embassy security guards, are located immediately outside the
main embassy compound. These houses accommodate staff transiting through Kabul to or from
the field. They also have shared bedrooms, toilets, and showers; however, they are generally
considered better than the shared accommodations inside the embassy compound.

Embassy Kabul hosts a non-stop flow of visitors and their staffs, including congressional
delegations. The embassy also hosts field staff going out or coming back from leave or
temporary duty. These visitors exacerbate the already crowded housing condition. During OIG’s
structured interviews of randomly selected staff, approximately one-third stated that housing
conditions had reduced their productivity, some by up to 50 percent. Common complaints
included overcrowded conditions and lack of privacy, mainly voiced by employees living in
shared accommodations.

Similar to their work situation, staff members at Herat and Mazar-e-Sharif live in different
locations, rather than on a single compound. The type of housing varies by location. For
example, individuals at Camp Stone in Herat have their own rooms, but they must walk
approximately 100 yards to use the showers and toilets. According to one Department official,
individuals working on district support teams often sleep in tents. Personnel on provincial
reconstruction team compounds generally live in trailers.

Although not specifically a housing issue, in interviews with OIG, staff members also frequently
complained about the lack and poor maintenance of gym equipment and space. According to the
management officer, Embassy Kabul has procured approximately $1 million in new gym
equipment. The OIG team observed some of the new gym equipment prior to its departure from
the embassy at the end of January 2011. The management officer also stated that the embassy
was actively looking for a warehouse style building to add more gym equipment. The embassy
hired an additional community liaison officer and implemented “magical mystery tours,” which
are excursions to mystery locations outside the embassy compound, held on random dates and
times, for embassy staff fun and relaxation. The regional security officer also started some group
exercise classes for anyone who would like to participate.

Vehicles, Security Personnel, and Interpreters at Regional Posts

At the time of OIG’s review, regional posts lacked a sufficient number of vehicles to effectively
and fully achieve their goals. In Herat and Mazar-e-Sharif, there are self-drive areas where
employees are permitted to drive embassy vehicles within authorized parameters to meet with
Afghan Government officials, non-governmental organizations, and their counterparts at
provincial reconstruction teams. In January 2011, the field staff reported they had an insufficient
                                                10
                                        UNCLASSIFIED
                                         UNCLASSIFIED

number of vehicles, and all vehicles were shared between Department officials and officials
working for other agencies. This situation created occasional schedule conflicts and necessary
rescheduling, and required that staff find alternatives such as coordinating site visits with
colleagues from the Department or other agencies. Since the OIG team’s visit, Embassy Kabul
reported it has provided additional vehicles to the regional post in Herat, making available one
vehicle for every two staff members. The embassy also noted that more vehicles are in the
pipeline.

Staff in Herat and Mazar-e-Sharif reported that traveling to areas not designated as self-drive is
problematic. For example, a Department official in Herat stated that he is only able to visit
approximately 18 percent of his area of responsibility. An official in Mazar-e-Sharif noted that
about 78 percent of his area of responsibility is accessible via self-drive. To reach locations
outside self-drive zones, staff must rely on the military for transportation, and coordination can
be difficult. In addition, staff reported that meetings are often scheduled based on the availability
of military transportation, rather than the need. Moreover, although military vehicle support is
occasionally available to regional staff, it is not always appropriate. For example, one official
noted that to visit a school, he was required to ride in a military convoy of four mine resistant
ambush protected vehicles, which conflicts with the “soft engagement” strategy favored by
embassy and regional post representatives. The official stated that such a convoy fails to create
and maintain trust and good relationships.
(b) (5)




During OIG’s fieldwork, staff at regional posts in Herat and Mazar-e-Sharif also reported a need
for more interpreters. Department officials in Herat and Mazar-e-Sharif had to share interpreters
with other COM officials. Embassy Kabul management explained they were aware of and
wanted to resolve this issue. Professionals such as doctors and lawyers are generally the most
qualified to work as interpreters, and the higher salaries offered by the U.S. Government may
cause them to pursue these jobs. Thus, embassy management stated the Department must ensure
that hiring interpreters does not drain the local economy of its professional workforce.

The embassy reported that since OIG completed its fieldwork, it has begun expanding the
number of interpreters and translators working at the regional posts from 19 to 27. Officials in
Herat verified the establishment of positions for three interpreters—one U.S. Government direct-
hire filled in February 2011, one locally employed staff member to be filled by mid-July 2011,
and a second locally employed staff member expected to be filled by the end of October 2011.
These officials noted they believe these interpreters are sufficient for the region’s workload.
Officials in Mazar-e-Sharif also verified it now has a sufficient number of interpreters, with one
in place and two more in the process of being hired.
                                                 11
                                         UNCLASSIFIED
                                       UNCLASSIFIED

At the time of the OIG team’s visit to Herat, staff members were experiencing difficulties with
slow information technology (IT) connections. However, Embassy Kabul has been working to
upgrade its IT circuits and is currently working with the Defense Information Systems Agency to
upgrade the circuit in Herat.

In the draft of this report, OIG recommended that Embassy Kabul increase the number of
vehicles and interpreters at both regional posts. However, in comments on the draft, the embassy
reported that it had provided more vehicles at the posts, and both posts stated they now had a
sufficient number of interpreters. Since these issues were resolved, this report does not contain
recommendations.




                                               12
                                       UNCLASSIFIED
                                    UNCLASSIFIED


Abbreviations

CAA          controlled access area
COM          chief of mission
Department   Department of State
DS           Bureau of Diplomatic Security
ISAF         International Security Assistance Force
IT           information technology
MERO         Middle East Regional Office
OBO          Bureau of Overseas Buildings Operations
OIG          Office of Inspector General
S/SRAP       Special Representative for Afghanistan and Pakistan
USAID        U.S. Agency for International Development




                                            13
                                    UNCLASSIFIED
                                        UNCLASSIFIED


Appendix I – Purpose, Scope, and Methodology

MERO initiated this limited-scope review on December 21, 2010 under the authority of the
Inspector General Act of 1978, as amended. The objectives of this limited-scope review were to
determine: (1) the degree to which the Department conducted needs assessments to identify,
develop, and staff new positions at Embassy Kabul and its regional posts; and (2) the availability
and conditions of office facilities, housing, and logistical support for staff filling these new
positions. This review focused only on the Department’s process. However, to reflect the
magnitude of the civilian uplift, staffing numbers identified in this report are inclusive of the
Department and all agencies under COM authority.

OIG conducted this review from December 2010 to August 2011 in Washington, DC; and in
Kabul, Mazar-e-Sharif, and Herat, Afghanistan. The Afghanistan fieldwork was conducted from
January 20-31, 2011. The team interviewed Department officials from the Bureau of South and
Central Asian Affairs, S/SRAP, OBO, the Bureau of Management; and at Embassy Kabul, the
health unit, Bureau of Information Resources Management, Interagency Provincial Authority,
consular section, political section, economic section, regional security office, and the Bureau of
International Narcotics and Law Enforcement Affairs; and the regional security office at the
regional post in Herat. The team also reviewed decision memos, cables, needs assessments,
contracts, and other documents on the process for setting staffing levels, housing policies, and
office and residence construction projects.

The team also visited the construction sites in Mazar-e-Sharif and Herat and interviewed the
management officer, section chiefs, and 42 randomly selected American staff members at
Embassy Kabul and regional posts in Mazar-e-Sharif and Herat, and at several provincial
reconstruction team camps. During the staff interviews, the OIG team asked each staff member
15 questions regarding, work space and conditions, living space, productivity, and morale. OIG
visited several offices and different types of housing facilities, and toured the ongoing new
housing and office building construction sites.

OIG conducted this limited-scope review in accordance with the Quality Standards for
Inspection and Evaluation issued in January 2011 by the Council of the Inspectors General on
Integrity and Efficiency.

This report was prepared under the direction of Richard “Nick” Arntson, Assistant Inspector
General for MERO. The following staff members conducted the limited-scope review and/or
contributed to the report: Mohamed Abdou, David Bernet, Patrick Dickriede, Carl Gipson, Kelly
Herberger, and Edward O’Donnell.




                                                14
                                        UNCLASSIFIED
                                       UNCLASSIFIED


Appendix II – Comments From the Special Representative for Afghanistan
and Pakistan




UNCLASSIFIED                                                  May 31, 2011

TO:            Office of the Inspector General (MERO)
               Nick Arntson, Assistant Inspector General for the Middle East
               Patrick Dickriede, Deputy, Middle East Region

FROM:          S/SRAP – Frank Ruggiero

SUBJECT:       Comments on Draft MERO Limited-Scope Review of Planning for a
               Civilian Uplift at Embassy Kabul

REF:           MERO Draft Report Number MERO-I-11-11__2011

        S/SRAP appreciates the opportunity to comment on MERO’s draft limited scope review
on planning for the civilian uplift in Afghanistan. Embassy Kabul will respond separately to the
draft and the two proposed recommendations. In general, we believe that the report does not
sufficiently take into account the context and consequent constraints imposed on the Department
and the Embassy by the President’s Strategic Review for Afghanistan and Pakistan, and the
speed with which we were required to implement it.

        The MERO report cites several times “Embassy Kabul’s policy of not denying staffing
requests because of a lack of office space and housing . . .” (emphasis added). The
Administration’s time-table and staffing target drove the rapid buildup in Kabul and at field
locations, such as at Provincial Reconstruction Teams (PRTs), District Support Teams (DSTs),
and Regional Centers (RCs), to further the Strategic Plan’s outreach, stability, and development
goals. The Uplift more than doubled the civilian presence in Afghanistan, but each position
request was carefully vetted to ensure that it was essential, timely and well placed.

         Because of the ongoing insurgency, the security of our personnel was a key concern at
all locations. As a consequence, the decision was made to imbed all our field operations with
ISAF and NATO forces, and that the military forces (including NATO partners) would provide
our employees their housing, working spaces, communications, and security. Specific and
separate Memoranda of Understanding were negotiated to specify the level of support and the
reimbursement rates. While this approach allowed us to expeditiously implement the Uplift
country-wide, it also added to the complexity and difficulty of functioning there.


                                               15
                                       UNCLASSIFIED
                                        UNCLASSIFIED

        The Department was tasked with standing up an expeditionary civilian staff in one of the
world’s most underdeveloped nations under the extraordinary exigencies of war time – a
situation guaranteed to cause hardships for the men and women who volunteered to carry out the
President’s policy. As the MERO draft points out, among the hardships that employees
experience are crowded and less than ideal housing and office working conditions, and severe
constraints on their ability to move freely and safely about the country to do their work. Both
SRAP and the Executive Office are keenly aware of those difficulties, and the Department has
gone to extraordinary lengths to ameliorate them. Several new construction projects, in Kabul,
Herat and Mazar-e Sharif, are underway, but they have plagued by delays and are running way
behind schedule.

         In carrying out the joint civ-mil campaign strategy, our expectation has always been that
civilians in the field would live and work alongside their military counterparts in roughly the
same conditions. For example, if the commander of a base lives in a tent, the senior civilian will
live in a tent. The draft report conflates not only provincial reconstruction/district support team
living conditions with those that will eventually be achieved in the consulates or that they might
obtain in other countries, but also our modest and deliberately chosen expectations for support
with an undefined "adequate" office and living environment. The draft further fails to note that
both Herat (regional command West) and Mazar (regional command North) are "dual-hatted"
areas of operation with both active PRTs and DSTs continuing to operate even as we stand up
the consulate facilities. The principal officers for these posts serve also as the Senior Civilian
Representatives to the regional commands.

        To encourage employees to volunteer, and to recognize the exceptional hardships
involved in serving in Afghanistan employees benefit from the Department approved
Afghanistan Service Recognition Package to acknowledge those difficulties and to ensure fair
and just compensation for that service.

         We also highlight that the Department uses several methods to assign employees to
Afghanistan, in part as a way to enhance the attractiveness of a one-year, unaccompanied
posting. It appears that the MERO draft confuses the distinctions between those assignments
and short-term TDYs. Employees are sent to Afghanistan in the following ways: (1) on a
traditional, one- or two- year “assignment”; or (2) on a one-year “TDY-assignment” - in which
the employee is TDY from either Washington or from a losing post that allows their family to
remain at the losing post. The Department and other agencies also send employees to
Afghanistan for specific projects on short-term TDYs, and we believe that the report should
clarify the differences between being assigned to post for one year, being TDY-assigned for one
year to post, and being simply on a short-term TDY.

        The distinction is important because the limited housing and office space are assigned –
using a published post policy derived from FAM guidelines – based on whether they are there
short- or long-term. Employees assigned or TDY-assigned to Kabul for one year are given
preference in housing assignments; those on short-term TDYs – including MERO itself when it
visited Afghanistan – would be assigned less commodious and felicitous accommodation. The
MERO draft frequently mentions that employees were housed in large communal arrangements,

                                                16
                                        UNCLASSIFIED
                                        UNCLASSIFIED

when in fact the TDYers living in those barracks-like dwellings were on TDY for short-term
work in country, not assigned or TDY-assigned to the post for a year.

        The draft report also indicates that some employees must “hot-desk” because of the
shortage of desks in Kabul. The Embassy reports that only two persons were hot-desked during
this past year, both in CAA space, and both employees received office space by March 2010.
Short-term TDYers would not necessarily have a desk of their own, but would work at a desk
vacated by a colleague on leave. A plan is underway to expand CAA space for additional desks,
a difficult, lengthy, and expensive process.

        The draft discusses some housing conditions that were short term solutions and no longer
exist. For example, the infamous Kabul T-hooches were a temporary solution to a serious
housing problem for the large number TDYers visiting post – they are now gone. The off-
campus villas were a creative Embassy solution to provide accommodation when it became clear
construction projects were delayed. We believe the Embassy should be praised for this solution,
which was aimed at housing short-term TDYers and employees in transit to field assignments,
not those assigned or TDY-assigned to Kabul. The draft also says that employees asserted that
housing and office problems reduced staff productivity “by as much as 50 percent.” While that
statement does reflect frustrations at the difficulties employees faced, we believe it should be
noted that it was an anecdotal assessment – not a scientific measure – of productivity loss.

        After lauding the process used to carefully screen and prioritize the positions for the
Uplift, the MERO draft provides anecdotes from two Embassy sections that “they could do more
work if they had more people.” This assertion seems obvious on its face - more people can do
more work - but is not, in our view, a helpful observation indicative of the care taken in
implementing the Uplift policy. Everyone would like more staff, but choices had to be made.
The decisions to establish each new position under the Uplift program were coordinated closely
and prioritized with the Post and Washington agencies, and then cleared at the highest levels of
the Department.

        We also believe there could be more clarity in the draft MERO report about differences
in housing and working at civilian field platforms in Afghanistan, as exemplified by the
experiences reported by MERO of employees in Balkh and Herat Provinces, where Consulates
Mazar-e Sharif and Herat will be located. Like Balkh and Herat Provinces, each province in
Afghanistan may have several different civilian platforms, but all are imbedded with military
units, and living and working arrangements at those platforms are a reflection of the specific
conditions of the military unit in which that platform is imbedded.

         Depending on military partners for the support of civilian operations in a kinetic
environment for non-military policy implementation presents its own set of issues that
occasionally create anomalies. As the MERO draft points out, employees on different platforms
in Balkh and Herat Provinces may be near each other, but may also have different sleeping and
working arrangements, mirroring the conditions and facilities of the military unit. The draft
points out other obvious difficulties of functioning in partnership with our military colleagues,
but the formal opening of the consulate facilities – long delayed because of construction issues –
should alleviate these problems.
                                                17
                                        UNCLASSIFIED
                                         UNCLASSIFIED

        The draft also highlights the difficulties of mobility and communication for the field staff
in Herat and Mazar, but we believe the report should also note that from the beginning, the
Department’s expectation was that our field operations would use military platforms and rely on
them for logistical, life support, security, and mobility services. For example, the RSO has
recommended and the Emergency Action Committee approved self-drive for employees in
certain areas of the two provinces. However, in other areas self-drive is not approved and
convoys are required. In these cases, when the civilian must compete with the military for
resources, frustration can result. Additional convoy mobility issues come from a decision by the
Secretary that the Department would not use private security contractors to provide convoy
security for field platforms in Afghanistan. As the Embassy has pointed out in their response to
the MERO draft, many additional armored vehicles are in the pipeline, and when the consulates
open (probably in late 2011) private security contractors will provide security for the principal
officers’ movements. However, for the others at the field platforms, the policy decision has been
that we will continue to use military support. This is consistent with Afghan Government’s
edicts regarding private security contractors.

        We believe the draft MERO report should also note that the new consulate facilities were
planned to be unclassified facilities after weighing the cost-benefit to the Department.
Employees deployed in the field have access to SIPRnet, DOD's classified network, and do use it
to communicate when a classified channel is required. We must clarify that the Department is
currently upgrading the circuits to the two locations – not upgrading the entire system, as the
draft asserts – which will facilitate speedier communications for the consulates.



Approved:      S/SRAP – Frank Ruggiero, Deputy

Drafted:       NEA-SCA/EX/PMO/AFPAK – (b) (6)

Cleared:       DS – (b) (6)         – ok
               DS/DSS –   (b) (6)                 – ok
               DS/IP – (b) (6)               – ok
               S/SRAP – (b) (6)         – ok
               NEA-SCA/EX – (b) (6)               - ok
               NEA-SCA/EX/SPMO –         (b) (6)            - ok
               DS/IP – (b) (6)           - ok
               DS/IP/OPO – (b) (6)                   - ok
               NEA-SCA/EX/IT –     (b) (6)           – ok




                                                 18
                                         UNCLASSIFIED
                                       UNCLASSIFIED


Appendix III – Comments From Embassy Kabul



                                           Embassy of the United States of America
                                                   Kabul, Afghanistan




UNCLASSIFIED                                             June 4, 2011
INFORMATION MEMORANDUM

TO:           Office of the Inspector General (MERO)
              Nick Arnston, Assistant Inspector General for the Middle East
              Patrick Dickriede, Deputy, Middle East Region

FROM:         Ambassador Karl W. Eikenberry

SUBJECT:      Comments on Draft MERO Limited-Scope Review of Planning for a Civilian
              Uplift at Embassy Kabul

REF:          MERO Draft Report Number MERO-I-11-11_2011


The “Limited-Scope Review of Planning for the Civilian Uplift at Embassy Kabul” Draft report
notes that “The rapid influx of personnel, coupled with Embassy Kabul’s policy of not denying
staffing requests because of a lack of office facilities and housing, resulted in insufficient
working and living space for incoming staff at both the embassy and the regional posts in Mazar-
e-Sharif and Herat.” Post strongly disagrees:


   •   The President directed the civilian uplift. When President Obama came into office, he
       issued new policy directives to deal with the situation in Afghanistan. These directives
       included increases in both civilian and military staffing. The Deputy Secretary of State
       chaired weekly interagency phone calls to ensure all were meeting the numerical goals
       set for the civilian uplift in Afghanistan. This issue was a regular topic at NSC Deputies
       and even Principals committee meetings. Denying staffing increases in this context
       would have been directly counter to national policy directives.

   •   Post acted quickly to implement the recommendations in the timeline specified in
       the President's Strategic Review for Afghanistan and Pakistan. In just six months in
       2009, Post doubled the number of authorized positions, and still was able to provide
       single occupancy residences for everyone on assignments of one year or longer. It was

                                               19
                                       UNCLASSIFIED
                                    UNCLASSIFIED

    not until June 2010, 18 months after the Uplift began, that Kabul had to resort to
    temporary double occupancy for employees assigned for one year or longer. By that
    time, the Kabul population had increased to nearly three times the number present in
    January 2009.

•   To provide adequate housing and office space to meet this Uplift, Post and OBO
    initiated multiple projects to construct temporary and permanent office space and
    housing in 2009. By the end of 2009, a Post-managed project added 72 new residential
    units. As late as February 2010, OBO projected completion of 288 residential units by
    May/June 2010 and 872 offices by June 2010. As the first personnel assigned to shared
    housing did not arrive until July 2010, timely completion of the construction projects
    would have reduced the residential and office crowding. Once they had been assigned, it
    was difficult, if not impossible, to turn off these new personnel to accommodate the
    slower housing growth. More importantly, delayed arrival would have had a negative
    impact on the programs the new staff was to implement.

•   Because the contractor completed the residential buildings eight months behind
    schedule, Post had no option but to house some permanent personnel in multi-
    occupancy residences between June and December 2010.

•   Since opening the initial two new housing pods in December 2010, all incoming
    personnel with assignments of one year or more are in single residency
    accommodations. This process was underway during the OIG MERO visit.

•   OBO currently projects completion of the new non-permanent office buildings in
    mid-September 2011. Although 15 months behind schedule, these office buildings will
    substantially reduce overcrowding.

•   Post understood that working and living conditions in an expeditionary
    environment would be difficult. As a result, Washington and Kabul collaborated on a
    number of measures to mitigate these tough conditions. The Afghanistan Service
    Recognition Package (ASRP) lists these measures and Washington/Post modified it
    several times as conditions changed. The ASRP now allows in each year up to 65 days
    out of country on three Rest and Recuperation (R&R) breaks, or two R&Rs and three
    Regional Rest Breaks (RRBs). Moreover, employees may earn from 70% to 105% of
    their base salary in incentives for serving under these recognized and well-advertised
    hardship conditions.

•   Post did what it could with existing facilities. Noting limitations, Post did all possible
    to improve existing facilities and give employees options for recreation. Post
    management engaged extensively with employees via direct meetings and polling to seek
    community input. Based on this engagement and other employee suggestions, Post:
        o re-purposed a temporarily underused building into a community center for social
           events;

                                            20
                                    UNCLASSIFIED
                                        UNCLASSIFIED

           o purchased tents and finished these with air conditioning, heating, carpeting,
             furniture, electricity, video and internet for alternate personal space;
           o expanded outdoor dining facilities, and improved menus based on community
             concerns;
           o provided for all-weather use of an outdoor swimming pool and the tennis court;
           o expanded gym facilities and installed over $500,000 in exercise equipment; and
           o provided a robust, free internet system and no cost telephone service to the United
             States.

   •   OBO originally projected that the new consulate facilities would be operational in
       the fall of 2010, but the facilities remain incomplete, with a current delivery date of
       September 2011. Incoming staff arrived in Mazar-e-Sharif and Herat throughout 2010
       with the expectation that they would be working and living in newly renovated buildings
       consistent with standard State Department facilities. However, they are still residing in
       Spartan temporary conditions typical of military bases. In all cases, COM staff live and
       work in environments comparable to their military counterparts.

   •   Embassy mental health experts from the Health Unit have visited both Mazar-e-
       Sharif and Herat to discuss the situation with local staff. (b) (5)

                                                    While a contributing factor, housing and
       office space conditions were not the root cause of the problems in either location. The
       Interagency Provincial Affairs (IPA) office, which is responsible for managing field
       operations, and the Management Section have repeatedly engaged the German military
       (responsible for managing shared facilities in Mazar-e-Sharif) and the U.S. military
       (responsible for managing shared facilities in Herat) to ensure proper maintenance of
       COM office and living space.

   •   To assist with living conditions in Mazar, the Field Support Unit delivered
       additional and improved housing units, in the form of five two-man living
       containers and one MWR container to Camp Marmal, which is currently owned by
       the Germans. Staff assigned to Mazar live in three locations around the city, Camp
       Marmal, PRT Mazar-e-Sharif and the Regional Training Center. Staff assigned to Herat
       are live in four locations, Camp Stone, Camp Arena, PRT Herat and the Regional
       Training Center. In April 2011, the Field Support Unit delivered laptops that enabled
       field personnel to utilize SIPR and classified systems at Camp Stone, which is located
       approximately one hour from the Consulate site.

The MERO report also states that “staff members at the regional posts in Mazar-e-Sharif and
Herat have an insufficient number of vehicles, personal protective services personnel, and
interpreters to fully carry out their work requirements.” Again, Post believes this is an inaccurate
description:
   •   RSO continues to assess the threat levels and set self drive areas accordingly.


                                                21
                                        UNCLASSIFIED
                                        UNCLASSIFIED


   •   The FAM suggests that Post have one car per four personnel. As of April 27, 2011,
       Herat had 29 COM personnel assigned to the Consulate and 13 Fully Armored Vehicles,
       or nearly one car for every two people. This compares favorably to the Embassy, which
       has one car per 20 personnel.

   •   Post has supplied additional vehicles to the field. Since April 27, the Embassy has sent
       Consulate Herat two soft skin 4-door pick-up trucks for use by LES. Kabul Motor Pool
       sent a further nine armored vehicles to Herat in September 2010 to support the RSO
       security contractors. Since that time, we have sent two dedicated RSO cars as well as a
       special use RSO car to support VVIP visits in Herat.

   •   Kabul currently has 210 vehicles in the pipeline, but due to customs and registration
       issues, has been unable to add any to the fleet since July 23, 2010. An additional 175
       vehicles are now entering the up-armoring pipeline, and the Embassy just placed an order
       for 160 additional FAVs.

   •   U.S. Training Center (USTC), a contractor, provides movement services to COM
       personnel in Mazar and Herat. When the consulates open, USTC will provide a full-
       time protective detail to each of the Principal Officers, as well as a Quick Response Force
       (QRF) and at least one protective detail for other COM personnel for movements outside
       of the self-drive area at each location. This is consistent with the movement security
       protocols at the Embassy in Kabul. Until the consulates open, USTC in Mazar and Herat
       have limited capability to support VIP visitors.

Post believes interpreters are sufficient to meet needs. The Front Office has one cleared
American Pashto-Dari interpreter. In addition, Herat currently has one cleared American Dari
interpreter. There are 13 Afghan interpreters/translators based in Kabul with another five in
various stages of the recruiting and clearance process. There are 19 Afghan
interpreters/translators working in the field with an additional 27 new or replacement positions in
various stages of the recruiting and clearance process.




Drafted:       MGT: (b) (6)
Cleared:       EXEC: (b) (6)
               EXEC: (b) (6)




                                                22
                                        UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                      HOTLINE
                     202/647-3320
                  or 1-800-409-9926
        to report illegal or wasteful activities.


               You may also write to
             Office of Inspector General
              U.S. Department of State
               Post Office Box 9778
                Arlington, VA 22219

       Please visit our Web site at oig.state.gov

           Cables to the Inspector General
          should be slugged “OIG Channel”
              to ensure confidentiality.
UNCLASSIFIED




UNCLASSIFIED
